FEC -- Semiannual Report:  Executive Summary (9/95)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending September 30, 1995
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General
Act of 1978, as amended, and includes a summary of the Office of
Inspector General's activities for the period April 1, 1995 through September 30, 1995.
The audit of the Federal Election Commission's fiscal year
1994 Payroll Expense and Related Accounts that was started during
the last reporting period was completed and released.  While the
results of our procedures did not disclose any significant control weaknesses or non-compliance with federal laws,
regulations, or FEC policy, we presented two audit determinations and suggestions to improve existing controls over time and
attendance and treasury checks.  This audit is discussed in
further detail in the Audit Section of this report.
The peer review conducted on our office was completed and
the final report issued to the Inspector General during this
reporting period.  We were pleased that the review indicated that the FEC's OIG was found to be operating in a suitable manner.  A
quality control system was found to be in place and the OIG staff
was found to possess the necessary professional requirements to be performing their duties.  It was also reported that all
continuing education requirements as required by the "Yellow Book" were being met.
The OIG also conducted and completed a peer review on
another designated agency Office of Inspector General.
No new investigations were opened during this reporting
period.